No. 20-6922
In the Supreme Court of the United States

MELVIN BONNELL,
Petitioner,

Vv.

STATE OF OHIO,
Respondent.

ON PETITION FOR WRIT OF CERTIORARI
TO THE OHIO SUPREME COURT

PROOF OF SERVICE

MICHAEL C. O’MALLEY
Cuyahoga County Prosecutor
KATHERINE E. MULLIN*
Assistant Prosecuting Attorney
*Counsel of Record
The Justice Center, 8th Floor
1200 Ontario Street
Cleveland, Ohio 44113
kemullin@prosecutor.cuyahogacounty.us
(216) 698-6454

Counsel for Respondent State of Ohio
PROOF OF SERVICE

I, Katherine Mullin, counsel of record for Respondent and a member of the Bar
of this Court, hereby certifies that on February 24, 2021 she served Kimberly Rigby,
counsel of record for Petitioner Melvin Bonnell, and co-counsel Erika LaHote, by
placing in the United States Mail, postage pre-paid, properly addressed to Attorneys
Rigby and LaHote at the Officer of the Ohio Public Defender, 250 East Broad Street,
Suite 1400, Columbus, Ohio 43215, a copy of the Brief in Opposition to Petition for
Writ of Certiorari.

Respectfully submitted,

KATHERINE E. MULLIN*
Assistant Prosecuting Attorney
*Counsel of Record
CUYAHOGA COUNTY PROSECUTOR'S OFFICE
The Justice Center, 8th Floor
1200 Ontario Street
Cleveland, Ohio 44113
kemullin@prosecutor.cuyahogacounty.us
(216) 698-6454
Counsel for Respondent State of Ohio

All Parties required to be served have been served. I further declare under penalty of
perjury that the foregoing is true and correct. This certificate is executed on February

24, 2021.
Ki Ley

KATHERINE E. MULLIN (0084122)
Assistant Prosecuting Attorney

Subscribed and sworn before me by the said Affiant on the date below and designated.

Attorney At Law
NOTARY PUBLIC
STATE OF OHIO Notary Public

My Commission Has
No Expiration Date 1
Section 147.03 O.R.C.

 
    
 
 
  
